No. __________

In the Supreme Court of the United States
JON C. CALDARA; BOULDER RIFLE CLUB, INC.; GENERAL COMMERCE,
LLC; TYLER FAYE; and MARK RINGER,
Petitioners,
v.
CITY OF BOULDER; JANE S. BRAUTIGAM, City Manager of the City of Boulder,
in her official capacity; MARIS HEROLD, Chief of Police of the City of Boulder, in
her official capacity,
Respondents.
On Petition For Writ Of Certiorari To The
United States Court Of Appeals
For The Tenth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of Certiorari
Contains 6,464 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 23, 2020.
___/s/ Cristen A. Wohlgemuth___
Cristen A. Wohlgemuth*
*Counsel of Record
Cody J. Wisniewski
MOUNTAIN STATES
LEGAL FOUNDATION
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cristen@mslegal.org
cody@mslegal.org
Counsel for Petitioners

